TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Office of Appeals Has Improved
                      Compliance Within Its Collection Due
                       Process Program; However, Some
                         Improvement Is Still Needed



                                           July 15, 2010

                              Reference Number 2010-10-075




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


THE OFFICE OF APPEALS HAS                              During this review, Appeals located and
IMPROVED COMPLIANCE WITHIN ITS                         provided office case files containing complete
COLLECTION DUE PROCESS                                 documentation for our CDP and Equivalent
PROGRAM; HOWEVER, SOME                                 Hearing samples, an issue that was a concern in
                                                       prior years.
IMPROVEMENT IS STILL NEEDED
                                                       However, some cases in our samples did not
                                                       include an impartiality statement. Appeals
Highlights                                             personnel informed us that on April 29, 2008, a
                                                       programming enhancement was implemented
Final Report issued on July 15, 2010                   on their Appeals Centralized Database System.
                                                       It assists employees working CDP cases to
Highlights of Reference Number: 2010-10-075            document prior involvement with taxpayers.
to the Internal Revenue Service Chief of               However, TIGTA identified some cases that
Appeals.                                               were closed after the enhancement date where
                                                       hearing officers did not document their
IMPACT ON TAXPAYERS                                    impartiality in the case files or in the Decision
The Office of Appeals (Appeals) continues to           Letters as required.
show improvement in complying with the                 Finally, our case reviews identified 10 taxpayer
statutory requirements for its Collection Due          accounts with incorrect Collection Statute
Process (CDP) program. TIGTA determined                Expiration Dates. On five taxpayer accounts,
that Appeals classified most taxpayer requests         the Collection Statute Expiration Date was
properly; as a result, these taxpayers received        extended in error, allowing the Internal Revenue
the appropriate type of hearing. Also, in most         Service additional time to collect any balances
cases, Appeals personnel input the proper              owed by these taxpayers, a potential violation of
computer coding to identify that taxpayer              taxpayer rights. Conversely, the Collection
requests were received and completed.                  Statute Expiration Date on the other five
However, hearing officers did not always               taxpayer accounts was too short, which could
document their impartiality as required. As a          cause the Internal Revenue Service a potential
result, there is a risk of prior involvement in the    loss of revenue.
taxpayer’s case and a potential lack of                WHAT TIGTA RECOMMENDED
independence. Finally, on some taxpayer
accounts, the Collection Statute Expiration Date       TIGTA recommended that the Chief, Appeals,
was extended longer than the length of the CDP         determine whether the Appeals Centralized
hearing, a potential violation of taxpayer rights.     Database System enhancement, which requires
                                                       hearing officers to document their impartiality, is
WHY TIGTA DID THE AUDIT                                functioning properly and cannot be bypassed.
This audit was initiated because TIGTA is              TIGTA also recommended that Appeals
statutorily required to determine whether the          management review and correct the taxpayer
Internal Revenue Service complied with the             accounts with Collection Statute Expiration Date
provisions of 26 United States Code                    errors identified by the audit team.
Sections 6320 (b) and (c) and 6330 (b)                 Appeals management agreed with both
and (c) when taxpayers exercised their rights to       recommendations. Appeals will contact the
appeal the filing of a Notice of Federal Tax Lien      Modernization and Information Technology
or the issuance of a notice of intent to levy.         Services organization to verify that the coding
                                                       for the Appeals Centralized Database System
WHAT TIGTA FOUND
                                                       enhancement is functioning properly. If any
In response to our previous audit, Appeals             problems are identified, Appeals will take actions
developed additional CDP procedures in                 to correct the error. Appeals also indicated it
December 2009 to better ensure that proper             corrected the erroneous Collection Statute
documentation is retained in its case files.           Expiration Dates identified in this review.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 15, 2010


 MEMORANDUM FOR CHIEF, APPEALS

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Office of Appeals Has Improved Compliance
                             Within Its Collection Due Process Program; However, Some
                             Improvement Is Still Needed (Audit # 201010004)

 This report presents the results of our review of to determine whether the Internal Revenue
 Service complied with 26 United States Code Sections 6320(b) and (c) and 6330(b)
 and (c) when taxpayers exercised their right to appeal the filing of a Notice of Federal Tax Lien
 or issuance of a notice of intent to levy. This audit is part of our Fiscal Year 2010 Annual Audit
 Plan and addresses the major management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                   The Office of Appeals Has Improved Compliance
                                     Within Its Collection Due Process Program;
                                    However, Some Improvement Is Still Needed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Most Case Files Contained Sufficient Documentation to Verify
          That Appeals Properly Classified Taxpayers’ Requests...............................Page 3
          Hearing Officers Did Not Always Document Their Impartiality .................Page 4
                    Recommendation 1:..........................................................Page 6

          The Collection Statute Expiration Date Was Not Always Correct...............Page 6
                    Recommendation 2:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measures...............................................................Page 13
          Appendix V – Collection Due Process Procedures.......................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 18
         The Office of Appeals Has Improved Compliance
           Within Its Collection Due Process Program;
          However, Some Improvement Is Still Needed




                 Abbreviations

ACDS       Appeals Centralized Database System
CDP        Collection Due Process
CSED       Collection Statute Expiration Date
EH         Equivalent Hearing
FY         Fiscal Year
IRS        Internal Revenue Service
U.S.C.     United States Code
                              The Office of Appeals Has Improved Compliance
                                Within Its Collection Due Process Program;
                               However, Some Improvement Is Still Needed




                                             Background

When initial contacts by the Internal Revenue Service (IRS) do not result in the successful
collection of unpaid tax, the IRS has the authority to attach a claim, a Notice of Federal Tax Lien
(lien), to a taxpayer’s assets. 1 The IRS also has the authority to seize or levy a taxpayer’s
property, such as wages or bank accounts, to satisfy a taxpayer’s debt. 2
In February 1996, the IRS established procedures that allowed taxpayers to appeal the filing of a
lien and proposed or actual levies. Congress enacted legislation to protect taxpayers’ rights in
the IRS Restructuring and Reform Act of 1998. 3 Taxpayers now have the right to a hearing with
the Office of Appeals (Appeals) under the Collection Due Process (CDP) 4 provisions. Appeals
is independent of other IRS offices, and its mission is to resolve tax controversies, without
litigation, on a basis which is fair and impartial to both the Federal Government and the taxpayer.
When a taxpayer timely requests an Appeals hearing regarding the filing of a lien or the issuance
of a notice of intent to levy, the taxpayer is granted a CDP hearing. However, if the taxpayer’s
request for a CDP hearing is not received within the allotted time, usually within 30 calendar
days, the taxpayer, at the discretion of Appeals, might be granted an Equivalent Hearing (EH).
In addition, the taxpayer must request an EH hearing within 1 year of the issuance of the
notices of intent to levy or to file a lien.
Taxpayers have the right to petition the United States Tax Court if they disagree with Appeals’
decision on a CDP hearing. When Appeals makes a final decision on a taxpayer’s case, the
hearing officer issues a Determination Letter on CDP cases or a Decision Letter on EH cases.
During Fiscal Year (FY) 2009, Appeals closed 28,670 CDP cases and 6,840 EH cases.
The Treasury Inspector General for Tax Administration is required to determine annually
whether the IRS complied with legal guidelines and procedures for the filing of a lien or a notice
of intent to levy and the right of the taxpayer to appeal. 5 This is our tenth annual audit of
taxpayer appeal rights.




1
  26 United States Code (U.S.C.) Section (§) 6321 (Supp. III 2000).
2
  26 U.S.C. § 6331 (Supp. III 2000).
3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
4
  See Appendix V for an explanation of the CDP and Equivalent Hearing procedures.
5
  26 U.S.C. §§ 7803(d)(1)(A)(iii) and (iv) (Supp. III 2000).
                                                                                                              Page 1
                            The Office of Appeals Has Improved Compliance
                              Within Its Collection Due Process Program;
                             However, Some Improvement Is Still Needed



Our previous audit report on the Appeals process was issued in September 2009, 6 and the related
corrective action was planned for implementation by February 15, 2010.
The scope period for this year’s audit covered CDP and EH cases closed between
October 1, 2008, and September 30, 2009, which was prior to the planned implementation date
for last year’s corrective action. Where applicable, we did not make recommendations in this
report for findings repeated from the previous audit if the recommendation and the suggested
corrective action was still deemed sufficient in correcting future errors.
This review was performed by contacting Appeals personnel in San Francisco, California, and
Syracuse, New York, during the period November 2009 through May 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




6
 The Office of Appeals Continues to Improve Compliance With Collection Due Process Requirements (Reference
Number 2009-10-126, dated September 17, 2009).
                                                                                                     Page 2
                               The Office of Appeals Has Improved Compliance
                                 Within Its Collection Due Process Program;
                                However, Some Improvement Is Still Needed




                                       Results of Review

Appeals continues to show improvement in complying with the CDP requirements. In response
to our previous audit, Appeals developed additional CDP procedures in December 2009 to better
ensure that proper documentation is retained in its case files. During this review, Appeals
located and provided office case files containing complete documentation for our CDP and EH
samples, an issue that was a concern in prior years. 7
In our prior two audits, we identified concerns related to Appeals providing taxpayers with the
proper hearing as well as ensuring the appropriate computer coding was input to taxpayers’
accounts. In this audit, we determined that Appeals classified most taxpayer requests properly;
as a result, these taxpayers received the appropriate type of hearing. We also found during this
review that in most cases, Appeals personnel input the proper computer coding to identify that
taxpayer requests were received and completed.
However, Appeals/Settlement officers (hearing officers) 8 did not always document their
impartiality in the case files or in the Decision Letters as required. 9 If hearing officers do not
document their impartiality, there is a risk of prior involvement in the taxpayer’s case and a
potential lack of independence.
Finally, we identified 10 taxpayer accounts from our sample of 140 CDP and EH cases where the
Collection Statute Expiration Date (CSED) was incorrect. 10 On five taxpayer accounts, the
CSED date was extended in error, allowing the IRS additional time to collect any balances owed
by these taxpayers, a potential violation of taxpayer rights. Conversely, the CSED on the other
five taxpayer accounts was too short, which could cause the IRS a potential loss of revenue.

Most Case Files Contained Sufficient Documentation to Verify That
Appeals Properly Classified Taxpayers’ Requests
During this review, we found that Appeals has made progress in retaining relevant
documentation in the case files, which allowed us to independently verify that most taxpayers
received the proper type of hearing. Ninety-nine percent of the case files we reviewed contained


7
  ****************1******************************** Request for a Collection Due Process or Equivalent
Hearing (Form 12153).
8
  For the purpose of this report, Appeals officers and/or Settlement officers will be referred to as hearing officers.
9
  CDP Determination Letters, CDP Summary Notices of Determination (waivers), and EH Decision Letters all must
include an impartiality statement.
10
   The CSED is the date the statute expires for collection of tax, penalty, or interest. The CSED is 10 years from the
assessment date of the posting of the original return.
                                                                                                              Page 3
                               The Office of Appeals Has Improved Compliance
                                 Within Its Collection Due Process Program;
                                However, Some Improvement Is Still Needed



the required information to verify that taxpayers received the proper type of hearing. ***1***
**************************************1************************************
***********1*********************************, we estimate that 98 taxpayer files may
not include the required documentation.
**************************************1*************************************
*****************************************************************************
****************************************************************************
****************************************************************************
***************************************************************.
In response to last year’s report, 11 Appeals updated the Internal Revenue Manual 12 in
December 2009 to require that key documents be maintained in the case files. Appeals also
developed a check sheet, listing the documents which should be retained in each Appeals CDP
and EH file. Because the cases in our samples were closed before Appeals changed its
procedures, we could not evaluate their effectiveness. However, because Appeals has taken
corrective action, we are making no further recommendations in this report, but we will continue
to monitor this issue during future audits.

The majority of taxpayers received the appropriate type of hearing
We found that the majority of taxpayers in our samples received the proper type of hearing.
****************************************1**********************************
****************************************************************************
****************************************************************************
****************************************************************************
********************************************************************. Appeals
management agreed with our analysis *****************1*****************************
***************************************************, we estimated that 410 taxpayer
cases may have received a CDP hearing during FY 2009 instead of an EH as required.

Hearing Officers Did Not Always Document Their Impartiality
The Internal Revenue Manual requires that a CDP hearing or an EH must be conducted by a
hearing officer who has had no prior involvement with respect to the unpaid tax. It specifies that
all hearing officers assigned to a case must always document “no prior involvement” in the case
activity record during their initial analysis. However, the taxpayer may waive this requirement.

11
   The Office of Appeals Continues to Improve Compliance With Collection Due Process Requirements (Reference
Number 2009-10-126, dated September 17, 2009).
12
   The Internal Revenue Manual is the single official source for IRS policies, directives, guidelines, procedures, and
delegations of authority in the IRS.
13
   IRS Form 12153 Request for Due Process or Equivalent Hearing (Rev 11-2006) Catalogue Number 26685D.
                                                                                                               Page 4
                              The Office of Appeals Has Improved Compliance
                                Within Its Collection Due Process Program;
                               However, Some Improvement Is Still Needed



If a hearing officer does not document the case file with a statement of his or her impartiality,
there is a risk of prior involvement in the taxpayer’s case and a potential lack of independence.
To comply with IRS procedures, Determination and Decision Letters and waivers sent to
taxpayers must also include an impartiality statement. However, a lack of this statement does
not mean that hearing officers were not impartial or that taxpayers received an unfair hearing.
We identified eight cases in our sample which did not include an impartiality statement. This is
a significant increase from our prior review ********1*********************************
****1****. 14 In 4 (6 percent) of the 70 CDP sample cases, the hearing officer did not include the
impartiality statement in the case activity record. ******1*******************************
****************************************************************************
******************************************.
Also, 4 (6 percent) of the 70 EH sample cases did not have the impartiality statement. ***1*****
******************************************************************************
*****************************************************************************
********.
We estimate 1,638 of the 28,670 CDP cases and 391 of the 6,840 EH cases closed in FY 2009
did not contain the required impartiality statements. As a result, we could not determine whether
taxpayer rights were potentially violated.
This issue has been brought to the attention of Appeals management in prior reports. In response
to our FY 2007 15 and FY 2008 16 reports, Appeals management agreed to revise written guidance
and provide training to hearing officers for documenting impartiality. During this review, we
confirmed that Appeals revised and updated its Internal Revenue Manual in March 2009, which
requires hearing officers to include an impartiality statement in the case activity record during
their initial analysis of the case.
Appeals personnel informed us that, beginning on April 29, 2008, a programming enhancement
change was implemented on the Appeals Centralized Database System (ACDS). 17 It assists
employees working CDP cases to document prior involvement with taxpayers. When a hearing
officer makes his or her first entry on a new case, he or she will be prompted by a pop-up box to
ask if there has been any prior involvement with the taxpayer for the type of tax and tax years
associated with the CDP. After the hearing officer responds, a systemic entry is made to the case



14
   The Office of Appeals Continues to Improve Compliance With Collection Due Process Requirements (Reference
Number 2009-10-126, dated September 17, 2009).
15
   The Office of Appeals Has Improved Its Processing of Collection Due Process Cases (Reference
Number 2007-10-139, dated September 21, 2007).
16
   The Office of Appeals Continues to Show Improvement in Processing Collection Due Process Cases (Reference
Number 2008-10-160, dated September 12, 2008).
17
   The ACDS is a computerized case control system used to control and track cases throughout the appeals process.
                                                                                                          Page 5
                              The Office of Appeals Has Improved Compliance
                                Within Its Collection Due Process Program;
                               However, Some Improvement Is Still Needed



activity record. The pop-up box will also be activated if the taxpayer’s case is reassigned or
transferred to a new hearing officer.
However, four of the eight cases without an impartiality statement were assigned after Appeals
implemented the enhancement to its ACDS. Because omissions of the impartiality statement
have continued to occur after the update of the ACDS, this is an indication that the new systemic
control may not always be working as intended.

Recommendation
Recommendation 1: The Chief, Appeals, should determine whether the ACDS enhancement,
which requires hearing officers to document their impartiality, is functioning properly and cannot
be bypassed.
        Management’s Response: Appeals management agreed with our recommendation.
        Appeals will consult with the Modernization and Information Technology Services
        organization to verify that the coding for the ACDS enhancement that it implemented in
        April 2008 will in all cases prompt the hearing officer for the impartiality statement upon
        assignment or reassignment of a CDP case. If Appeals identifies a problem with the
        coding, it will initiate a work request to correct the error. Appeals also will post an
        article to its web site cautioning employees that the impartiality statement prompt may
        not always appear in certain circumstances. The article will explain that employees must
        still document their impartiality, even if not prompted.

The Collection Statute Expiration Date Was Not Always Correct
The IRS generally has 10 years from the date of assessment to collect a liability owed by a
taxpayer. The final date to collect is referred to as the CSED. Because the IRS usually stops
collection activity during the Appeals process, the CSED is temporarily suspended during a CDP
hearing. The IRS suspends the 10-year statute of limitations from the date of the CDP hearing
request until the date the Appeals determination is made final or the date the taxpayer withdraws
the request in writing.
The statute suspension is systemically controlled on the Integrated Data Retrieval System. 18 One
code is entered to start the suspension and another is entered to stop the suspension and restart
the statute period. Generally, the code input to suspend the collection statute is entered by the
Collection function; however, in certain instances, Appeals is responsible for the input.
Upon completion of each CDP hearing, Appeals is responsible for entering the code to remove
the suspension of the statute period. The Integrated Data Retrieval System will systemically

18
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 6
                             The Office of Appeals Has Improved Compliance
                               Within Its Collection Due Process Program;
                              However, Some Improvement Is Still Needed



recalculate the CSED based on the dates entered for the two codes (which reflect the length of
the Appeals hearing plus expiration of the time period for seeking judicial review or the
exhaustion of any rights to appeal following judicial review).
However, in 9 (13 percent) of the 70 CDP cases ****************1*********************
**********************. The IRS incorrectly adjusted the collection date in four of the nine
CDP cases, which allowed the IRS additional time to collect the delinquent taxes. When the IRS
suspends the collection statute for a period longer than its policy allows, it potentially violates
taxpayer rights.
In the remaining five CDP cases, the IRS adjusted the collection time to decrease the time the
IRS should have had to collect the delinquent taxes. The dates calculated by IRS employees as
the suspension start date were incorrect. Similarly, the code needed to designate the end of the
collection statute suspension was not input or the suspension end date was incorrect. We
estimate 3,686 of the 28,670 CDP cases closed in FY 2009 have an incorrect CSED
(2,048 taxpayers had their collection time shortened and 1,638 taxpayers had their time extended
in error).
When the taxpayer is given an EH, the collection statute is not suspended. ******1**********
****************************************************************************
*****************************************************************. We estimate
that 98 of the 6,840 taxpayers with EH cases closed in FY 2009 had their collection statute
inappropriately extended, resulting in potential violation of taxpayer rights.
This issue has been brought to the attention of Appeals management in prior reports. 19 In
response to our FY 2008 report, 20 Appeals management agreed to revise their written guidance,
update templates, and provide training to hearing officers. At that time, Appeals also stated that
it would develop and implement a procedure to immediately correct taxpayer accounts when
hearing officers identify missing computer codes for suspension of collection activity. These
corrective actions were scheduled to be completed by May 15, 2009. As a result, we are making
no further recommendations in this report, but we will continue to monitor this issue during
future audits.




19
   The Office of Appeals Has Improved Its Processing of Collection Due Process Cases (Reference
Number 2007-10-139, dated September 21, 2007) and The Office of Appeals Should Continue to Strengthen and
Reinforce Procedures for Collection Due Process Cases (Reference Number 2006-10-123, dated
September 20, 2006).
20
   The Office of Appeals Continues to Show Improvement in Processing Collection Due Process Cases (Reference
Number 2008-10-160, dated September 12, 2008).
                                                                                                       Page 7
                           The Office of Appeals Has Improved Compliance
                             Within Its Collection Due Process Program;
                            However, Some Improvement Is Still Needed



Inaccurate collection dates in taxpayer records need to be constantly monitored and, when
necessary, corrected immediately. Hearing officers should thoroughly review collection dates
and initiate corrective actions as part of their case processing responsibilities. Failing to correct
this vital part of the taxpayer’s record will continue to affect taxpayer rights and potentially
result in lost revenue to the IRS.

Recommendation
Recommendation 2: The Chief, Appeals, should review and correct the taxpayer accounts
with CSED errors that we identified.
       Management’s Response: Appeals management agreed with our recommendation
       and indicated they have corrected all CSED errors on the taxpayers’ accounts identified
       during this audit.




                                                                                               Page 8
                                The Office of Appeals Has Improved Compliance
                                  Within Its Collection Due Process Program;
                                 However, Some Improvement Is Still Needed



                                                                                                   Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with 26 United
States Code (U.S.C.) Sections (§§) 6320(b) and (c) and 6330(b) and (c) when taxpayers
exercised their right to appeal the filing of a Notice of Federal Tax Lien or issuance of a notice of
intent to levy. To accomplish this objective, we:
I.         Determined whether any new procedures or processes have been developed since the
           prior Treasury Inspector General for Tax Administration statutory review.
II         Determined whether Appeals’ CDP and EH case files contained required documentation
           for a hearing and if the hearing officers followed requirements of 26 U.S.C. §§ 6320 and
           6330.
           A. Obtained an extract of the ACDS 1 file maintained at the Treasury Inspector General
              for Tax Administration Data Center Warehouse of 28,670 CDP and 6,840 EH cases
              closed during FY 2009 (October 1, 2008, through September 30, 2009). We
              validated the extract by reviewing appropriateness of data within fields requested and
              compared population totals to information obtained from Appeals officials.
           B. Selected and secured CDP and EH cases for our two samples. We selected statistical
              attribute samples of 70 CDP cases (population of 28,670) and 70 EH cases
              (population of 6,840). We used a confidence level of 90 percent, a precision level of
              ±6 percent, and an expected error rate of 10 percent to determine these sample sizes.
              We selected statistical samples because we wanted to project our results to the entire
              population of CDP and EH cases.
           C. Determined whether the 70 CDP and 70 EH sampled case files contained adequate
              documentation and, if applicable, determined the cause and confirmed any potential
              exceptions with Appeals officials and projected the number of exceptions within each
              population.
III.       Determined whether Appeals’ CDP and EH cases were classified correctly using the CDP
           and the EH samples selected in Step II.B.
IV.        Determined whether Appeals was in compliance with 26 U.S.C. §§ 6320(b) and (c) and
           6330(b) and (c) using the CDP and the EH samples selected in Step II.B. by reviewing
           case file information to determine whether Appeals documented the following:


1
    The ACDS is a computerized case control system used to control and track cases throughout the appeals process.
                                                                                                            Page 9
                              The Office of Appeals Has Improved Compliance
                                Within Its Collection Due Process Program;
                               However, Some Improvement Is Still Needed



        A. The taxpayer was provided with an impartial hearing officer or waived this
           requirement [26 U.S.C. §§ 6320(b)(3) and 6330(b)(3)].
        B. The taxpayer was allowed to raise issues at the hearing relating to the unpaid tax or
           the proposed lien or levy action, including appropriate spousal defenses, challenges to
           the appropriateness of collection activities, offers of collection alternatives, or the
           underlying liability [26 U.S.C. §§ 6330(c)(2)].
V.      Determined whether CDP and EH accounts were being properly coded on the Integrated
        Data Retrieval System. 2
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies and procedures for classifying
CDP and EH cases, ensuring hearing officers met the criteria specified in 26 U.S.C. §§ 6320
and 6330, and reviewing applicable computer codes on the Integrated Data Retrieval System for
CDP and EH cases. We evaluated these controls by reviewing a sample of CDP and EH cases
and reviewing potential exception cases with Appeals officials.




2
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 10
                       The Office of Appeals Has Improved Compliance
                         Within Its Collection Due Process Program;
                        However, Some Improvement Is Still Needed



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Janice M. Pryor, Audit Manager
Mildred Rita Woody, Lead Auditor
Mark A. Judson, Senior Auditor
Yasmin B. Ryan, Senior Auditor




                                                                                  Page 11
                       The Office of Appeals Has Improved Compliance
                         Within Its Collection Due Process Program;
                        However, Some Improvement Is Still Needed



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Appeals AP




                                                                       Page 12
                         The Office of Appeals Has Improved Compliance
                           Within Its Collection Due Process Program;
                          However, Some Improvement Is Still Needed



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 410 CDP case files contain hearing requests that were received
    late and were not properly classified as an EH case (see page 3).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified a population of 28,670 CDP cases that
were closed in FY 2009. We selected a statistical attribute sample of 70 CDP cases *****1*****
******************************************************************. We estimate
that 1.43 percent of the cases in the population (410 taxpayers) were not properly classified.
When CDP cases are misclassified, taxpayers receive hearing rights to which they are not legally
entitled. Using the Exact Binomial Method, we are 90 percent confident that the true exception
rate is between 0.07 percent and 6.60 percent.

Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 98 EH case files did not contain the taxpayer’s written hearing
    request. As a result, we could not determine if Appeals addressed what the taxpayer’s appeal
    request covered or whether Appeals addressed all the issue(s) presented (see page 3).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified 6,840 EH cases that were closed in
FY 2009. We selected a statistical attribute sample of 70 EH cases *****1******************
*************************************. We estimate that 1.43 percent of the cases in the
population (98 taxpayers) did not contain a taxpayer’s hearing request. Without the hearing
request, we could not determine what the taxpayer’s appeal request covered or whether Appeals
addressed all the issue(s) presented. Using the Exact Binomial Method, we are 90 percent
confident that the true exception rate is between 0.07 percent and 6.60 percent.




                                                                                          Page 13
                          The Office of Appeals Has Improved Compliance
                            Within Its Collection Due Process Program;
                           However, Some Improvement Is Still Needed



Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 1,638 CDP cases files did not contain the impartiality statement
    by the hearing officer (see page 4).
•   Taxpayer Rights – Potential; 391 EH case files did not contain the impartiality statement by
    the hearing officer (see page 4).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from the ACDS and identified a population of
28,670 CDP cases that were closed in FY 2009. We selected a statistical attribute sample of
70 CDP cases and found that 4 of these CDP case files did not contain the required impartiality
statement by the hearing officer. We estimate that 5.71 percent of the cases in the population
(1,638 taxpayers) did not contain the required impartiality statement. If a hearing officer does
not document the case file with a statement of his or her impartiality, taxpayer rights may be
affected because there is a risk of prior involvement and a potential lack of independence. Using
the Exact Binomial Method, we are 90 percent confident that the true exception rate is between
1.97 percent and 12.60 percent.
For the EH sample, we used a computer extract from the ACDS and identified 6,840 EH cases
that were closed in FY 2009. We selected a statistical attribute sample of 70 EH cases and found
that 4 of these EH case files did not contain the required impartiality statement by the hearing
officer. We estimate that 5.71 percent of the cases in the population (391 taxpayers) did not
contain the required impartiality statement. If a hearing officer does not document the case file
with a statement of his or her impartiality, taxpayer rights may be affected because there is a risk
of prior involvement and a potential lack of independence. Using the Exact Binomial Method,
we are 90 percent confident that the true exception rate is between 1.98 percent and
12.60 percent.

Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 1,638 CDP case files in which taxpayers had CSEDs that were
    inappropriately extended longer than the length of the hearing (see page 6).
•   Taxpayer Rights – Potential; 98 EH case files in which taxpayers had CSED that were
    inappropriately extended (see page 6).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from the ACDS and identified a population of
28,670 CDP cases that were closed in FY 2009. We selected a statistical attribute sample of
70 CDP cases and found 4 of these CDP case files contained instances in which the taxpayer’s
CSED had been suspended longer than the length of the CDP hearing. We estimate that

                                                                                            Page 14
                         The Office of Appeals Has Improved Compliance
                           Within Its Collection Due Process Program;
                          However, Some Improvement Is Still Needed



5.71 percent of the cases in the population (1,638 taxpayers) had an incorrect CSED posted to
taxpayer records. A CSED extended in error to a taxpayer account provides the IRS more time
than allowed to collect the delinquent taxes. Using the Exact Binomial Method, we are
90 percent confident that the true exception rate is between 1.98 percent and 12.60 percent.
For the EH sample, we used a computer extract from the ACDS and identified a population of
6,840 EH cases that were closed in FY 2009. We selected a statistical attribute sample of 70 EH
cases **********************************1*************************************
*********. We estimate that 1.43 percent of the cases in the population (98 taxpayers) had an
incorrect CSED posted to taxpayer records. A CSED extended in error to a taxpayer account
provides the IRS more time than allowed to collect the delinquent taxes. Using the Exact
Binomial Method, we are 90 percent confident that the true exception rate is between
0.07 percent and 6.60 percent.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; 2,048 CDP case files indicated taxpayers had CSEDs that
    were not correctly extended for the length of the CDP hearing (see page 6).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified a population of 28,670 CDP cases that
were closed in FY 2009. We selected a statistical attribute sample of 70 CDP cases and found
5 of these CDP case files contained instances in which the taxpayer’s CSED was not correctly
extended for the length of the CDP hearing. We estimate that 7.14 percent of the cases in the
population (2,048 taxpayers) had an incorrect CSED posted to taxpayer records. A CSED
shortened in error to a taxpayer account provides the IRS less time than allowed to collect the
delinquent taxes which may result in the loss of revenue for the IRS. Using the Exact Binomial
Method, we are 90 percent confident that the true exception rate is between 2.86 percent and
14.43 percent.




                                                                                        Page 15
                          The Office of Appeals Has Improved Compliance
                            Within Its Collection Due Process Program;
                           However, Some Improvement Is Still Needed



                                                                                   Appendix V

                 Collection Due Process Procedures

The IRS is required to notify taxpayers in writing that a lien has been filed or when it intends to
levy. A taxpayer is allowed to appeal the filing of the lien or proposed levy action through the
CDP by filing a hearing request. This hearing request must be received within 30 calendar days
plus 5 business days of the filing of the lien or within 30 calendar days of the date of the notice
of intent to levy. If a taxpayer’s hearing request is submitted on time, the IRS will suspend all
collection efforts and the Office of Appeals (Appeals) will provide the taxpayer a CDP hearing.
If a taxpayer’s hearing request is not submitted timely, Appeals has discretionary authority to
provide the taxpayer an EH and consider the same issues as in a CDP hearing; however, the IRS
is not required to suspend collection action and the taxpayer does not have the right to a judicial
review.
Taxpayers are entitled to one hearing per tax period for which a lien or notice of intent to levy
has been issued. The hearing is conducted by an Appeals officer or Settlement officer (hearing
officer) who has had no prior involvement with the unpaid tax. During the hearing, the hearing
officer must verify whether the requirements of all applicable laws or administrative procedures
related to the lien or notice of intent to levy were met. The hearing officer must also address any
issues the taxpayer may raise relevant to the unpaid tax, the filing of the lien, or the proposed
levy, such as whether the taxpayer is an innocent spouse; determine if collection actions were
appropriate; and decide if other collection alternatives would facilitate the payment of the tax.
The hearing officer must determine whether any proposed collection action balances the need for
efficient collection of taxes with the taxpayer’s legitimate concerns. The taxpayer may not raise
an issue that was considered at a prior administrative or judicial hearing if the taxpayer
participated meaningfully in the prior proceeding.
At the conclusion of a hearing, Appeals provides the taxpayer a letter with the hearing officer’s
findings, agreements reached with the taxpayer, any relief provided to the taxpayer, and any
actions the taxpayer and/or the IRS are required to take. For a CDP case, the taxpayer receives
either a Determination Letter, which provides an explanation of the right to a judicial review, or
a Summary Notice of Determination, which is used when the taxpayer agrees with Appeals,
waives the right to a judicial review, and waives the suspension of collection action. If the
taxpayer disagrees with the Appeals decision, he or she may petition the courts. For an
EH case, the taxpayer receives a Decision Letter.
The CDP or EH case is reviewed by the hearing officer’s manager at the completion of the case
to evaluate whether the hearing officer followed all requirements and procedures.


                                                                                            Page 16
                         The Office of Appeals Has Improved Compliance
                           Within Its Collection Due Process Program;
                          However, Some Improvement Is Still Needed



After Appeals has made a determination on a case, if the taxpayer has a change in circumstances
that affects the Appeals determination or if the Collection function does not carry out the
determination, the taxpayer has the right to return to Appeals. The Appeals office that made the
original determination generally retains jurisdiction over the case.




                                                                                         Page 17
        The Office of Appeals Has Improved Compliance
          Within Its Collection Due Process Program;
         However, Some Improvement Is Still Needed



                                                Appendix VI

Management’s Response to the Draft Report




                                                        Page 18
The Office of Appeals Has Improved Compliance
  Within Its Collection Due Process Program;
 However, Some Improvement Is Still Needed




                                                Page 19
